September 11, 2014

MEMORANDUM FOR:               Mitchell Ross
                              Director, Acquisition and Grants Office
                              National Oceanic and Atmospheric Administration



FROM:                         Andrew Katsaros
                              Assistant Inspector General for Audit

SUBJECT:                      Monitoring of the NOAA Professional and Technical Services
                               (Pro-Tech) Strategic Sourcing Program

We are initiating a monitoring effort on the Pro-Tech Strategic Sourcing Program.

The primary objectives of this effort will be to report on (1) the status of this Strategic Sourcing
Program, including funding, planning, awarding and administering contracts, and (2) any risks that
may adversely impact its implementation and completion. We will brief you on identify any
significant issues we identify in the course of our monitoring effort.

We look forward to meeting with your team at our entrance conference on September 15, 2014.
Please contact me at (202) 482-7859 or Mark Zabarsky, Audit Director, at (202) 482-3884 if you
have any questions regarding this effort.

cc:       Barry Berkowitz, Senior Procurement Executive and Director,
           Office of Acquisition Management
          Mark Daley Deputy Director for Acquisition Program Management
          Mack Cato, Director, Audit, Internal Control Management Information Office, NOAA




      	
